APPENDIX

App. 1
19-2932
Von Weingarten v. Chester
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND IS GOVERNED BY FEDERAL RULE OF APPELLATE
PROCEDURE 32.1 AND THIS COURT’S LOCAL
RULE 32.1.1. WHEN CITING A SUMMARY ORDER IN A DOCUMENT FILED WITH THIS
COURT, A PARTY MUST CITE EITHER THE
FEDERAL APPENDIX OR AN ELECTRONIC DATABASE (WITH THE NOTATION “SUMMARY
ORDER”). A PARTY CITING A SUMMARY ORDER MUST SERVE A COPY OF IT ON ANY
PARTY NOT REPRESENTED BY COUNSEL.
At a stated Term of the United States Court of Appeals for the Second Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square, in
the City of New York on the 28th day of August, two
thousand twenty.
Present: ROSEMARY S. POOLER,
PETER W. HALL,
DENNY CHIN,
Circuit Judges.

App. 2

ALBERT VON WEINGARTEN,
MARY VON WEINGARTEN,
Plaintiffs Appellants,
19-2932-cv

v.
LONNIE CHESTER,
Defendant-Appellee.

Appearing for Appellant: Harold B. Stevens,
Stowe, VT.
Appearing for Appellee:

Duncan F. Kilmartin,
Newport, VT.
Thomas E. McCormick
(on the brief ),
Burlington, VT.

Appeal from the United States District Court for the
District of Vermont (Reiss, J.).
ON CONSIDERATION WHEREOF, IT IS
HEREBY ORDERED, ADJUDGED, AND DECREED that the judgment of said District Court be
and it hereby is AFFIRMED.
Appellants Albert and Mary Von Weingarten appeal from the August 28, 2019 order of the United
States District Court for the District of Vermont (Reiss,
J.) granting defendant Lonnie Chester’s motion for
summary judgment on their claims for malicious prosecution, abuse of process, and maladministration of an
estate. We assume the parties’ familiarity with the

App. 3
underlying facts, procedural history, and speciﬁcation
of issues for review.
Grants of summary judgment are reviewed de
novo and will be upheld only when, “construing all the
evidence in the light most favorable to the [nonmoving
party] and drawing all reasonable inferences in that
party’s favor, there is no genuine issue as to any material fact and the movant is entitled to judgment as a
matter of law.” Rivera v. Rochester Genesee Reg’l
Transp. Auth., 743 F.3d 11, 19 (2d Cir. 2014) (internal
quotation marks and citation omitted).
We turn ﬁrst to the Von Weingartens’ malicious
prosecution claim. Under Vermont law, lib order to recover for malicious prosecution, a plaintiff must
demonstrate that a party instituted a proceeding
against the individual without probable cause, that the
party did so with malice, that the proceeding terminated in that individual’s favor, and that the individual
suffered damages as a result of the proceeding.” Siliski
v. Allstate Ins. Co., 811 A.2d 148, 151 (Vt. 2002). A voluntary dismissal may be considered a favorable termination “if the dismissal somehow indicates that the
defendant is innocent of wrongdoing.” Id. at 151-52.
“On the other hand, if the reason for dismissal is not
inconsistent with a defendant’s wrongdoing, it will not
be considered a favorable termination.” Id. at 152 (internal quotation marks and citation omitted).
We agree with the district court that the proceeding at issue in this case—the Vermont Superior Court
suit—was not terminated in the Von Weingartens’

App. 4
favor. Although the Von Weingartens argue that it was
favorably terminated because the settlement provided
that they pay only $50,000, which is much less than
the amount Chester originally sought against them,
the settlement noted that neither party admitted fault.
Therefore, the settlement itself “is not inconsistent”
with the Von Weingartens’ wrongdoing, and thus it
cannot constitute a favorable termination. See Siliski,
811 A.2d at 152. The district court’s grant of summary
judgment to Chester on this claim was not erroneous.
We next turn to the district court’s grant of summary judgment to Chester on the Von Weingartens’
abuse of process claim. The Von Weingartens’ argument on this point, which spans two paragraphs in total, merely reiterates their arguments as to why the
district court erred in granting summary judgment on
the malicious prosecution claim. We accordingly conclude that the Von Weingartens have waived any challenge to the district court’s decision on this issue. See
Norton v. Sam’s Club, 145 F.3d 114, 117 (2d Cir. 1998)
(“Issues not sufﬁciently argued in the briefs are considered waived and normally will not be addressed on
appeal.”).
The ﬁnal issue we take up is whether the district
court properly concluded that the Von Weingartens’
maladministration of an estate claim fails as a matter
of law because the Vermont Supreme Court would
most likely not recognize that cause of action. “Where
the substantive law of the forum state is uncertain or
ambiguous, the job of the federal courts is carefully to
predict how the highest court of the forum state would

App. 5
resolve the uncertainty or ambiguity.” State Farm Mut.
Auto. Ins. Co. v. Mallela, 372 F.3d 500, 505 (2d Cir. 2004)
(internal quotation marks and citation omitted).
We agree with the district court that the Vermont
Supreme Court would likely not recognize a separate
cause of action for maladministration of an estate, at
least on these facts, for a number of reasons. First, the
Restatement (Second) of Torts does not recognize a
cause of action for maladministration of an estate, and
the Vermont Supreme Court has frequently looked to
the Restatements for guidance. See Skaskiw v. Vt.
Agency of Agric., 112 A.3d 1277, 1283 (Vt. 2014) (looking to the Restatement (Second) of Torts, provisions of
which it has “frequently . . . adopted,” in addressing a
defamation claim); cf. Birchwood Land Co. v. Krizan,
115 A.3d 1009, 1012 (Vt. 2015) (noting that the court
“frequently [has] adopted provisions of [the Restatement (Third) of Restitution & Unjust Enrichment]
where our law is undeveloped”).
Second, Vermont has a detailed procedure for adjudicating concerns regarding a probate estate’s administration. See Vt. Stat. Ann. ﬁt. 5, § 35; Vt. Stat.
Ann tit. 14, § 917. These aspects of state law further
suggest that any claims for maladministration would
not be recognized independent from the typical probate
process.
As the district court noted, the Vermont Supreme
Court does not afﬁrmatively recognize a cause of action
for maladministration of an estate outside the context

App. 6
of probate proceedings nor is it likely to do so. The Vermont Supreme Court has explained:
[F]ree access to the courts is an essential right
recognized by our state constitution. To curb
the more serious abuses of that right two carefully restricted torts are recognized: abuse of
process and malicious prosecution. If the wellreasoned balance thereby struck between free
access and remedy for serious abuse is really
to mean anything then we must not permit . . .
circumvention by affording an . . . unrestricted action under a different label.
Jacobsen v. Garzo, 542 A.2d 265, 268 (Vt. 1988) (internal quotation marks and citation omitted). “Maladministration” is not one of the “two carefully restricted
torts” recognized under Vermont law in this context.
Further, the Von Weingartens’ attempt to bring a maladministration claim is exactly the type of “circumvention” that the Vermont Supreme Court said it would
“not permit.” Just as the Vermont Supreme Court held
“that a claim for tortious interference with contractual
relations cannot be predicated upon an allegedly improper ﬁling of a lawsuit,” id., so too would it hold that
a claim for maladministration of an estate cannot be
based on an executor’s ﬁling and pursuit of a lawsuit.
The Von Weingartens’ “appropriate remedy, if any, lies
in an action for malicious prosecution because this tort
operates to protect the counter-policy of free access to
the courts.” Id. As we explained above, however, their
claim for malicious prosecution fails.

App. 7
We have considered the remainder of the Von
Weingartens’ arguments and ﬁnd them to be without
merit. Accordingly, the order of the district court
hereby is AFFIRMED.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
[SEAL]
/s/ Catherine O’Hagan Wolfe

App. 8
UNITED STATES DISTRICT COURT
FOR THE
DISTRICT OF VERMONT
)
ALBERT VON
)
WEINGARTEN and
MARY VON WEINGARTEN, )
)
Plaintiffs,
)
v.
)
)
LONNIE CHESTER,
)
Defendant.
)

Case No.
2:17-cv-00211

OPINION AND ORDER DENYING AS MOOT
DEFENDANT’S MOTION TO DISMISS AND
MOTION TO STRIKE THE AMENDED
COMPLAINT; CONDITIONALLY GRANTING
PLAINTIFFS’ MOTION TO AMEND; DENYING
AS MOOT PLAINTIFFS’ MOTION TO STRIKE
THE STATEMENT OF UNDISPUTED FACTS;
AND GRANTING DEFENDANT’S MOTION
FOR SUMMARY JUDGMENT
(Does. 26, 28, 31, 36, 37)
(Filed Aug. 28, 2019)
Plaintiffs Albert and Mary Von Weingarten (collectively, “Plaintiffs”) bring this action against Defendant
Lonnie Chester, the administrator of the Estate of
Philomena Weingarten (the “Estate”), asserting claims
for malicious prosecution, abuse of process, and maladministration of the Estate.

App. 9
Harold B. Stevens, III, Esq. represents Plaintiffs.
Thomas E. McCormick, Esq. and Duncan F. Kilmartin,
Esq. represent Defendant.
I.

Procedural Background.

On March 1, 2019, Defendant ﬁled a motion to dismiss for failure to state a claim, or in the alternative a
motion for a more deﬁnite statement and attached a
statement of undisputed facts and exhibits. (Doc. 26.)
On the same day, he ﬁled a motion to strike Plaintiffs’
Amended Complaint on the basis that it differed from
the one previously approved by the court. (Doc. 28.) In
response, on March 13, 2019, Plaintiffs ﬁled a second
motion to amend their Amended Complaint and a motion to strike Defendant’s statement of undisputed
facts and attached exhibits asserting this information
is irrelevant in the instant case. (Docs. 36 & 37.) Defendant opposed Plaintiffs’ motion to strike as well as
their second motion to amend.
On March 11, 2019, Defendant ﬁled a motion for
summary judgment. (Doc. 31.) On April 5, 2019, Plaintiffs opposed Defendant’s motion for summary judgment. Defendant replied on April 26, 2019, at which
time the court took the pending motions under advisement.
Because Defendant’s motion to dismiss is subsumed by his motion for summary judgment, the court
DENIES AS MOOT Defendant’s motion to dismiss and
motion to strike the Amended Complaint. The court
further DENIES AS MOOT Plaintiffs’ motion to strike

App. 10
Defendant’s statement of undisputed facts because the
case has been fully briefed on summary judgment and
because the parties have been afforded the opportunity
to “present all material that is pertinent to the motion.”
Fed. R. Civ. P. 12(d). The court hereby CONDITIONALLY GRANTS Plaintiffs’ motion to amend their
Amended Complaint so that it may consider the parties’ arguments in the context of the Second Amended
Complaint.
II.

The Undisputed Facts.

Philomena Mamie Weingarten died on December
20, 2001, at the age of 98. At the time of her death she
lived in Newport, Vermont. Philomena Weingarten had
six children: Anthony, Henry Jr., Robert, Albert, Juliet,
and Freida. Frieda is now deceased and was survived
by her daughter Leann and her son, Defendant Lonnie
Chester.
Following Philomena Weingarten’s death intestate, Defendant was appointed administrator of her
Estate. On September 1, 2005, the Vermont probate
court issued a Decision and Order (the “9/1/05 Decision
and Order”) wherein it granted Defendant’s motion to
compel Plaintiff Albert Von Weingarten to disclose and
turn over the Estate’s assets, and denied Plaintiff Albert Von Weingarten’s cross motion to remove Defendant as Administrator concluding, “[i]t is evident from
the record, and the court so ﬁnds, that the delays in
settling this estate have been solely the result of Albert
[Von Weingarten’s] own actions.” (Doc. 29-24 at 10.)

App. 11
On October 28, 2005, in his capacity as Administrator, Defendant ﬁled suit against Plaintiffs in the
Vermont Superior Court (the “Civil Suit”) alleging the
following claims: larceny; conversion; embezzlement;
fraud, false pretenses, trickery, or deceit; secreting
assets; guardians and guardianship de son tort; attorneys in fact and attorneys de son tort; executors/
administrators de son tort; fraud and undue inﬂuence;
deprivation of appropriate health care; false imprisonment; trespass; outrageous conduct; unlawful mischief;
and enforcement, judgment, and execution of the probate court’s 9/1/05 Decision and Order.
On December 5, 2005, Defendant obtained the probate court’s approval for an ex parte writ of attachment
on Plaintiffs’ residence based on the probate court’s
factual ﬁndings that Plaintiffs “are extremely deceptive persons who have obtained between $180,000 and
$250,000 of Philomena Weingarten’s assets without
cause or right[,]” had “listed for sale their only Vermont
property[,]” and that “there [was] an immediate danger
that the [Plaintiffs] w[ould] sell or convey their property to a bona ﬁde purchaser leaving insufﬁcient attachable property or other assets to satisfy this
judgment and protect the estate of the late Philomena
Weingarten[.]” (Doc. 29-26 at 15-16.)
On October 29, 2009, Plaintiffs moved for summary judgment in the Civil Suit. The Vermont Superior Court denied their motion for summary judgment
with regard to Defendant’s claims for conversion,
guardianship de son tort, attorneys in fact de son tort,
constructive fraud, false imprisonment, and trespass,

App. 12
but granted their motion for summary judgment with
regard to Defendant’s remaining claims.
On November 4, 2011, the parties reached a settlement in the Civil Suit pursuant to which they
agreed: “Case is settled. [Plaintiffs] shall pay $50,000
to the Estate of Philomena Weingarten. There is no admission of fault—none whatsoever—All estate proceedings, claims whatsoever are terminated with
prejudice. This suit will be dismissed with prejudice.
Full Conﬁdentiality only to the extent possible due to
Court procedure.” (Doc. 43-2 at 16.) The parties subsequently reported to the Vermont Superior Court that
they disagreed over the scope of the settlement agreement’s release.
On February 21, 2012, Defendant ﬁled a motion to
enforce the settlement agreement. On April 18, 2012,
Plaintiffs moved to set it aside. At an August 15, 2012
hearing held before the Vermont Superior Court, Defendant agreed with Plaintiffs that the settlement
agreement did not address the rights of distribution, if
any, which Plaintiff Albert Von Weingarten may have
as an heir to the Estate. Based on this concession, on
August 17, 2012, the Vermont Superior Court issued
the following Entry Order:
This matter came before the court on various
motions related to the settlement agreement
purportedly reached by the parties. The [Defendant] has conceded on the record that the
settlement does not reach rights of distribution which Albert Weingarten may have under
the intestate estate of Philomena Weingarten;

App. 13
that is, he has not relinquished his rights as
an heir.
In light of that concession, the court concludes
that there are no further matters in dispute
and the case is deemed resolved. The settlement agreement is otherwise enforceable.
Payment expected under the agreement shall
be made by September 3, 2012. All other
claims, including various claims for sanction,
are denied. This matter will be dismissed
upon payment to the estate of the sums required by the agreement. Interest thereafter
at statutory rate.
(Doc. 29-50 at 1.)
Plaintiffs appealed the August 17, 2012 Entry Order to the Vermont Supreme Court, asserting that
there was no meeting of the minds with regard to the
settlement agreement. The Vermont Supreme Court
denied their appeal and afﬁrmed the Entry Order. See
Chester v. Weingarten, 2013 WL 9055957, at *3 (Vt. Oct.
11, 2013) (“We accordingly afﬁrm the trial court’s order
enforcing the settlement agreement.”).
On October 18, 2016, Defendant ﬁled a Complaint
and motion for Foreclosure of a Perfected Writ of Attachment and Judgment Lien against Plaintiff Albert
Von Weingarten which Plaintiff Albert Von Weingarten
opposed. The Vermont Superior Court granted Defendant’s motion on July 18, 2017, however, funds from the
foreclosure have not yet been tendered to Defendant.
The Estate has not yet been probated and, to date,
Plaintiff Albert Von Weingarten has not fully complied

App. 14
with the probate court’s 9/1/05 Decision and Order
compelling him to disclose and turn over the Estate’s
assets.
III. Whether Plaintiffs’ Statement of Disputed
Facts May Be Considered.
The Federal Rules of Civil Procedure provide as follows:
A party asserting that a fact cannot be or is
genuinely disputed must support the assertion by: (A) citing to particular parts of materials in the record, including depositions,
documents, electronically stored information,
afﬁdavits or declarations, stipulations (including those made for purposes of the motion
only), admissions, interrogatory answers, or
other materials; or (13) showing that the materials cited do not establish the absence or
presence of a genuine dispute, or that an adverse party cannot produce admissible evidence to support the fact.
Fed. R. Civ. P. 56(c)(1). Under the court’s Local Rules,
“[a] party opposing summary judgment or a motion under Fed. R. Civ. P. 12(b)(6) or 12(c) that has been converted to a summary judgment motion must provide a
separate, concise statement of disputed material facts.”
L.R. 56(b).
When a party has moved for summary judgment . . . [and] has, in accordance with local
court rules, served a concise statement of the
material facts as to which it contends there

App. 15
exist no genuine issues to be tried, those facts
will be deemed admitted unless properly controverted by the nonmoving party.
Glazer v. Formica Corp., 964 F.2d 149, 154 (2d Cir.
1992).
Plaintiffs provided a statement of disputed facts
in support of their opposition to Defendant’s motion for
summary judgment in which they rely upon afﬁdavits
from Kathleen Judkins and Plaintiff Albert Von
Weingarten. Although their statement of disputed
facts fails to include record references for each disputed fact as required by Fed. R. Civ. 56(c)(1), where
relevant, the court has considered Plaintiffs’ citations
and exhibits. The court, however, will not search Plaintiffs’ briefs for any additional disputed facts. See Monahan v. N.Y.C. Dep’t of Corrs., 214 F.3d 275, 291 (2d
Cir. 2000) (holding summary judgment was properly
granted where party’s “counter-statement was . . . utterly bereft of record citations” and noting that the
court “is not required to consider what the parties fail
to point out”) (internal quotation marks omitted);
Ritchie v. Glidden Co., 242 F.3d 713, 723 (7th Cir. 2001)
(observing that “a court is not required to scour the record in search of evidence to defeat a motion for summary judgment”) (internal quotation marks omitted);
Skotak v. Tennaco Resins, Inc., 953 F.2d 909, 915-16
(5th Cir. 1992), cert denied, 506 U.S. 832 (1992) (“Rule
56 does not impose upon the district court a duty to sift
through the record in search of evidence to support a
party’s opposition to summary judgment[.]”); MacLeod
v. Town of Brattleboro, 2012 WL 1928656, at *1 (D. Vt.

App. 16
May 25, 2012), aff ’d, 548 F. App’x 6 (2d Cir. 2013)
(“[T]he court does not consider [p]laintiffs challenges
to facts that are not supported by references to the evidentiary record.”).
IV. The Disputed Facts.
Defendant contends that the Civil Suit has not yet
terminated because Plaintiffs have failed to pay the
$50,000 that they owe under the settlement agreement
and therefore the Vermont Superior Court has yet to
dismiss the Civil Suit with prejudice. Plaintiffs assert
that the judgment in the Civil Suit was declared to be
ﬁnal by the Vermont Supreme Court and further contend that the settlement agreement constituted a favorable termination for them because Defendant was
seeking a judgment in excess of $374,000. Plaintiffs
also assert that they complied with the settlement
agreement by mailing two checks, one for $89,500 and
the other for $500, to the Vermont Superior Court, requesting that the checks be held in escrow pending a
ruling on their second motion to remove Defendant as
the Administrator of the Estate.
Plaintiffs assert that Defendant did not have
“probable cause” to bring the Civil Suit because there
was no evidence that Plaintiffs wrongly took possession of any of Philomena Weingarten’s assets. Defendant disputes this assertion, noting that the probate
court approved his request for an ex parte writ of attachment in the amount of $250,000 against Plaintiffs’
residence.

App. 17
With regard to the ex parte writ of attachment,
Plaintiffs contend the amount of $250,000 was excessive because there was a $50,000 settlement agreement to “satisfy [Defendant’s] claim of the wrongful
taking[.J” (Doc. 47-1 at 4, ¶ 3.) Plaintiffs challenge the
probate court’s ﬁndings that they owed the Estate a
debt and that they would sell their residence if notiﬁed
in advance of the attachment. They further point out
that the probate court erred in ﬁnding them malefactors because “they took care of Philomena for three and
a half years, providing for her care, with room and
board at no cost to the Estate, yet they have been maliciously sued to collect a debt which they did not owe.”
(Doc. 43-1 at 5, ¶ 35.) They point out several ways in
which Defendant has failed to perform his duties as
the Estate’s Administrator including “never ﬁling a
sworn inventory of the Estate and by pursuing the
groundless underlying action against [Plaintiffs].” id.
at 5, ¶ 38. Defendant counters that the probate court’s
9/1/05 Decision and Order compelled Plaintiff Albert
Von Weingarten to disclose and turn over any and all
Estate assets, estimating the value of those assets at
between $180,000 and $250,000, and that the probate
court effectively determined that the ex parte attachment was not excessive when it was issued.
The court concludes that the foregoing disputed
facts do not preclude summary judgment because they
are either not material or are more properly characterized as legal arguments or arguments regarding the
proper interpretation of the facts. See Bordelon v. Chicago Sch. Reform Bd. of Trs., 233 F.3d 524, 528 (7th Cir.

App. 18
2000) (ruling that the burden of opposing summary
judgment is “riot satisﬁed by citations to the record
that support legal argument rather than controvert
material facts”); see also Rodriguez v. Vill. Green Realty, Inc., 788 F.3d 31, 39 (2d Cir. 2015) (“A fact is ‘material’if it ‘might affect the outcome of the suit under
the governing law.’“) (quoting Anderson v. Liberty
Lobby Inc., 477 U.S. 242, 248 (1986)).
V.

Conclusions of Law and Analysis.
A. Summary Judgment Standard.

Summary judgment must be granted when “there
is no genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of law.” Fed.
R. Civ. P. 56(a). The court “constru[es] the evidence in
the light most favorable to the nonmoving party and
draw[s] all reasonable inferences in his favor.” McElwee v. Cty. of Orange, 700 F.3d 635, 640 (2d Cir. 2012).
The moving party always “bears the initial responsibility of informing the district court of the basis for
its motion, and identifying those portions of the pleadings, depositions, answers to interrogatories, and admissions on ﬁle, together with the afﬁdavits, if any,
which it believes demonstrate the absence of a genuine
issue of material fact.” Celotex Corp. v. Catrett, 477 U.S.
317, 323 (1986) (internal quotation marks omitted).
When the moving party has carried its burden, its opponent must produce “sufﬁcient evidence favoring the
nonmoving party for a jury to return a verdict for that
party.” Anderson, 477 U.S. at 249. “The moving party is

App. 19
entitled to a judgment as a matter of law [if ] the nonmoving party [fails] to make a sufﬁcient showing on an
essential element of her case with respect to which she
has the burden of proof.” Celotex, 477 U.S. at 323 (internal quotation marks omitted).
“A dispute of fact is ‘genuine’ if ‘the evidence is
such that a reasonable jury could return a verdict for
the nonmoving party.’ Rodriguez, 788 F.3d at 39-40
(quoting Anderson, 477 U.S. at 248). “The function of
the district court in considering the motion for summary judgment is not to resolve disputed questions of
fact but only to determine whether, as to any material
issue, a genuine factual dispute exists.” Kaytor v. Elec.
Boat Corp., 609 F.3d 537, 545 (2d Cir. 2010). “Credibility determinations, the weighing of the evidence, and
the drawing of legitimate inferences from the facts are
jury functions, not those of a judge.” Proctor v. LeClaire,
846 F.3d 597, 608 (2d Cir. 2017) (internal quotation
marks omitted).
Summary judgment is not a “disfavored procedural shortcut, but rather an integral part of the Federal Rules as a whole, which are designed to secure the
just, speedy and inexpensive determination of every
action.” Celotex, 477 U.S. at 327. Defendant seeks summary judgment on all claims set forth in the Second
Amended Complaint, arguing that Plaintiffs have
failed to proffer admissible evidence to establish each
essential element of their claims for: (1) malicious

App. 20
prosecution; (2) abuse of process; and (3) maladministration of the Estate.1
B. Whether Plaintiffs’ Claim for Malicious
Prosecution Fails as a Matter of Law.
Plaintiffs assert a claim for malicious prosecution
alleging that Defendant initiated the Civil Suit in the
Vermont Superior Court without cause and with malice, and that the Civil Suit terminated in their favor.
They point out that the Vermont Superior Court
granted summary judgment on nine counts in their favor and thereafter they settled the Civil Suit as a “nuisance action[.]” (Doc. 43-2 at 20.)
Defendant argues that he is entitled to judgment
as a matter of law in his favor because Plaintiffs cannot establish that the Civil Suit has been terminated,
because Plaintiffs have not paid the $50,000 due under
the settlement agreement, and because a settlement
agreement is not a favorable termination. Defendant
further contends Plaintiffs have not proffered sufﬁcient evidence to satisfy their burden to establish he
ﬁled the Civil Suit with malice.

1

Defendant also responds to what he perceives as Plaintiffs’
claims for defamation. The Second Amended Complaint, however,
contains no reference to “defamation.” In any event, “Vermont law
recognizes a litigation privilege that extends to statements within
documents ﬁled in a judicial proceeding[,]” Casey v. Pallito, 2016
WL 96157, at *12 (D. Vt. Jan. 7, 2016), and thus a defamation
claim based upon court ﬁlings is not actionable in Vermont.

App. 21
“To recover for malicious prosecution the claimant
must establish that the person against whom the claim
is asserted instituted the proceeding against him (1)
without probable cause, (2) with malice, and that (3)
the proceeding terminated in claimant’s favor.” Anello
v. Vinci, 458 A.2d 1117, 1119 (Vt. 1983). Although the
Vermont Supreme Court has not squarely addressed
whether and in what circumstances a settlement
agreement may constitute a favorable termination, in
predicting how that court would rule, the court is
guided by the jurisprudence of other courts.2
“It is well-settled that an action terminated by settlement cannot sustain a malicious prosecution claim.”
Liberty Synergistics, Inc. v. Microﬂo Ltd., 50 F. Supp. 3d
267.287 (E.D.N.Y. 2014); see also Jaress & Leong v.
Burt, 150 F. Supp. 2d 1058, 1063 (D. Haw. 2001) (“[It is
a] well-accepted exception to the general rule that a
dismissal [with prejudice] resulting from a settlement
does not constitute a favorable termination for malicious prosecution purposes.”); Cox v. Williams, 593
N.W.2d 173, 175 (Mich. 1999) (“Generally, courts
have held that where termination results from a
2

Here, this court must determine whether the Vermont Supreme Court would consider the settlement agreement a favorable termination in the facts and circumstances of this case. See
Giuffre Hyundai, Ltd. v. Hyundai Motor Am., 756 F.3d 204, 209
(2d Cir. 2014) (“[I]t is our job to predict how the forum state’s
highest court would decide the issues before us[.]”) (internal quotation marks omitted). “In so doing, a federal court may be aided
by looking to well-reasoned decisions from other jurisdictions.”
Takahashi v. Loomis Armored Car Serv., 625 F.2d 314, 316 (9th
Cir. 1980).

App. 22
compromise or settlement or is brought about by an
action of the accused as a courtesy or favor or by some
act of the accused that prevents the litigation, there is
no favorable termination that will serve as a basis for
a cause of action for malicious prosecution[.]”); Van v.
Grand Casinos of Miss., Inc., 724 So.2d 889, 892 (Miss.
1998) (noting that “a dismissal reached as a result of a
voluntary settlement or compromise does not constitute a termination in favor of the accused”). These
decisions reﬂect that “[the] theory underlying the requirement of favorable termination is that it tends to
indicate the innocence of the accused[.]” Haight v.
Handweiler, 244 Cal. Rptr. 488, 489 (Cal. App. Dep’t
Super. Ct. 1988) (internal quotation marks omitted).
The Vermont Supreme Court would likely adopt a similar approach especially where, as here, the parties’
settlement agreement speciﬁcally notes that neither
party is admitting liability. See Doc. 43-2 at 16 (“There
is no admission of fault—none whatsoever[.]”); see also
Siliski v. Allstate Ins. Co., 811 A.2d 148, 151-52 (Vt.
2002) (“[I]f the dismissal somehow indicates that the
defendant is innocent of wrongdoing, it will be considered a favorable termination. . . . [I]f the reason for dismissal is ‘not inconsistent’ with a defendant’s
wrongdoing, it will not be considered a favorable termination.”).
In the absence of the settlement agreement, there
is no other ground for the court to determine that the
Civil Suit was terminated in Plaintiffs’ favor. Although
the Vermont Superior Court granted summary judgment in Plaintiffs’ favor on certain of Defendant’s

App. 23
claims, it denied summary judgment with regard to
others. The Civil Suit remains pending and Plaintiffs’
tender of payments under the settlement agreement is
conditioned upon the Vermont Superior Court placing
those payments in escrow and ruling on their renewed
motion to remove Defendant as Administrator of the
Estate.
Because Plaintiffs have failed to establish that the
Civil Suit terminated in their favor, the court need not
reach the issue of whether Defendant acted with malice in ﬁling the Civil Suit. See Anello, 458 A.2d at 587
(ruling “the claim [of malicious prosecution] does not
arise until the termination of the original proceeding
upon which it is based[.]”); see also Siliski, 811 A.2d at
151 (“[T]he termination of the prior proceeding in the
malicious prosecution claimant’s favor is an ‘essential
element’ of the tort.”).
For the reasons stated above, Defendant’s motion
for summary judgment on Plaintiffs’ malicious prosecution claim is GRANTED.
C. Whether Plaintiffs’ Claim for Abuse of
Process Fails as a Matter of Law.
Plaintiffs allege that Defendant’s motion for an ex
parte writ of attachment was an abuse of process because “there was no evidence of such debt, nor any such
judgment[.]” (Doc. 43-2 at 20.) To rebut this claim, Defendant cites the probate court’s approval of the ex
parte writ of attachment for $250,000 and asks the
court to grant summary judgment in his favor.

App. 24
“[A] plaintiff alleging the tort of abuse of process
must plead and prove: 1) an illegal, improper or unauthorized use of a court process; 2) an ulterior motive or
an ulterior purpose; and 3) resulting damage to the
plaintiff. These elements are separate and distinct.”
Jacobsen v. Garzo, 542 A.2d 265, 268 (Vt. 1988). “Remedies are available to those who are harmed by abuses
of this right of access to legal process. However, those
remedies are carefully limited so as not to produce an
unwarranted chilling effect on the exercise of the
right.” Id. at 267. “[T]here is no liability where the defendant has done nothing more than carry out the process to its authorized conclusion, even though with bad
intentions.” Id (citation omitted).
The Restatement (Second) of Torts deﬁnes abuse
of process as when an individual “uses a legal process,
whether criminal or civil, against another primarily to
accomplish a purpose for which it is not designed[.]”
Restatement (Second) of Torts § 682 (June 2019).
Courts have interpreted this to include “improperly
us[ing] subpoenas, ask[ing] for an excessive attachment, or us[ing] pleadings to coerce the surrendering
of unrelated property[.]” Weinstein v. Leonard, 2015 VT
136, ¶ 25, 200 Vt. 615, 627, 134 A.3d 547, 555 (citing
Doctor’s Assocs., Inc. v. Weible, 92 F.3d 108, 114 (2d Cir.
1996)).
The ex parte writ of attachment obtained by Defendant was approved by the probate court and was
supported by a ﬁnding that there was “a reasonable
likelihood that [Defendant] w[ould] recover judgment,
including interest and costs, in an amount equal to or

App. 25
greater than the amount of [the attachment].” (Doc. 2926 at 2.) The probate court further found that Plaintiffs
“[were] without credibility” and there was “an immediate danger that [Plaintiffs] w[ould] sell or convey their
property . . . leaving insufﬁcient attachable property or
other assets to satisfy this judgment and protect the
[E]state.” Id. at 16. The ex parte writ of attachment
was issued following the probate court’s 9/1/05 Decision and Order ﬁnding Plaintiff Albert Von Weingarten
had improperly “obtained control of [the Estate’s] assets which had an aggregate value of between
$180,000 and $250,000[.]” (Doc. 29-24 at 6, ¶ 43.)
Because the probate court approved the ex parte
writ of attachment for $250,000 with knowledge of the
operative facts and with speciﬁc factual ﬁndings to
support it, no rational jury could ﬁnd that Defendant’s
motion for an ex parte writ of attachment constituted
an “illegal, improper or unauthorized use of the court
process[.]” Garzo, 542 A.2d at 268. “When no rational
jury could ﬁnd in favor of the nonmoving party because
the evidence to support its case is so slight, there is no
genuine issue of material fact and a grant of summary
judgment is proper.” Gallo v. Prudential Residential
Servs., Ltd. P’ship, 22 F.3d 1219, 1224 (2d Cir. 1994).
Defendant’s motion for summary judgment on Plaintiffs’ abuse of process claim is GRANTED.

App. 26
D. Whether Plaintiffs’ Claim for Maladministration Fails as a Matter of Law.
Plaintiffs allege that Defendant’s ﬁling of the Civil
Suit and motion for the ex parte writ of attachment
constituted maladministration of the Estate. Speciﬁcally, Plaintiffs assert that Defendant wasted Plaintiffs’ assets and those of the Estate in contravention to
Defendant’s ﬁduciary duty to the Estate and to Plaintiff Albert Von Weingarten as one of the Estate’s heirs.
The court has previously noted that the Vermont
Supreme Court has not afﬁrmatively recognized a
cause of action for maladministration of an estate outside the context of a probate proceeding. At the pleading stage, however, it allowed Plaintiffs to advance this
novel theory of recovery until a factual record was provided in which to decide the claim. See Opinion and Order Denying Plaintiffs’ Motion to Alter or Amend
Order, Granting Plaintiffs’ Motion to Amend Complaint and Denying Defendant’s Motion to Dismiss
Plaintiffs’ Amended Complaint, Doc. 21 at 9 (“At this
juncture, the court has insufﬁcient information to determine whether a claim for maladministration of an
estate would be recognized under Vermont law. Rather
than dismiss the claim at the pleading stage, the court
will await a factual record.”). Because a factual record
is now before the court, the court must predict whether
the Vermont Supreme Court would recognize a tort
claim for maladministration of the estate in the facts
and circumstances of this case. See Chauca v. Abraham, 841 F.3d 86, 93 (2d Cir. 2016) (“[W]here the substantive law of the forum state is uncertain or

App. 27
ambiguous, the job of the federal courts is carefully to
predict how the highest court of the forum state would
resolve the uncertainty or ambiguity.”) (quoting Travelers Ins. Co. v. 633 Third Assocs., 14 F.3d 114, 119 (2d
Cir. 1994)).
There are at least three reasons why the Vermont
Supreme Court would not recognize a cause of action
for maladministration of an estate outside the context
of a probate court proceeding. First, under Vermont
law, “claim[s] [with the exception of malicious prosecution and abuse of process] cannot be predicated upon
. . . allegedly improper ﬁling[s.]” Garzo, 542 A.2d at
268. The Vermont Supreme Court has observed that
“[i]f the well-reasoned balance . . . struck between free
access [to the courts] and remedy for serious abuse is
really to mean anything then we must not permit . . .
circumvention by affording an . . . unrestricted action
under a different label.” Id. (second and third alteration in original) (internal quotation marks omitted).
Against this backdrop, Plaintiffs face an uphill battle
in asking the court to predict that the Vermont Supreme Court would recognize a new tort for maladministration of an estate.
Second, where Vermont law is undeveloped, the
Vermont Supreme Court frequently looks to the Restatement (Second) of Torts for guidance. See Birchwood Land Co. v. Krizan, 2015 VT 37, ¶ 9, 198 Vt. 420,
425, 115 A.3d 1009, 1012 (“We frequently have adopted
provisions of this Restatement where our law is undeveloped.”). The Restatement (Second) of Torts does not
recognize a cause of action for maladministration of an

App. 28
estate. Although both Vermont law and the Restatement recognize a cause of action for breach of a ﬁduciary duty, in this case, the only ﬁduciary duty relied
upon arises from Defendant’s role as Administrator of
the Estate.
Third, Vermont law delegates to Vermont’s probate courts and Vermont’s Superior Courts the authority to hear claims pertaining to a probate estate’s
administration. See 14 V.S.A. § 917 (“The Probate Division of the Superior Court shall regulate the conduct
of persons appearing in proceedings or involved in the
administration of estates or other matters within the
court’s jurisdiction. . . . It may exercise the powers of
contempt . . . and remove or suspend a ﬁduciary.”); 4
V.S.A. § 35(2)-(3) (“The Probate Division shall have jurisdiction of the settlement of estates[.]”); see also In re
Estate of Doran, 2010 VT 13, ¶ 15, 187 Vt. 349, 356, 993
A.2d 436, 441 (describing the scope of a de novo review
of a probate court’s decision under Vt. R. Civ. P. 72 and
noting “‘the record on appeal shall consist of the papers
and exhibits ﬁled in probate court’ as well as the appellant’s statement of questions and any transcripts
furnished by the parties”) (quoting Vt. R. Civ. 72(c)); In
re McGowan’s Estate, 102 A.2d 856, 857 (Vt. 1954)
(“For the due and orderly settlement of the estate of a
deceased person, under the direction and supervision
of the probate court, [14 V.S.A. § 917] contemplates
that . . . if it happens that an executor or administrator
is unsuitable for that purpose, he may be removed.”).
Having crafted a detailed procedure for adjudicating
concerns regarding a probate estate’s administration

App. 29
that permits not only ﬁduciary removal but de novo review, it is unlikely that the Vermont Supreme Court
would recognize a free-ﬂoating claim for maladministration of an estate untethered to a probate court proceeding. Indeed, the Vermont Superior Court reached
that same conclusion in the Civil Suit.3
Because the court predicts the Vermont Supreme
Court would not recognize a claim for maladministration of the estate outside the context of a probate court
proceeding, Defendant’s motion for summary judgment on that claim is GRANTED.
CONCLUSION
For the reasons stated above, the court DENIES
AS MOOT Defendant’s motion to dismiss and motion
to strike the Amended Complaint (Does. 26 & 28),
CONDITIONALLY GRANTS Plaintiffs’ motion to
amend (Doc. 31), DENIES AS MOOT Plaintiffs’ motion
to strike the statement of undisputed facts (Doc. 36),
and GRANTS Defendant’s motion for summary judgment on all claims set forth in the Second Amended
Complaint. (Doc. 37.)

3

The Vermont Superior Court in the Civil Suit ruled that
“all claims against executors de son tort are properly made in the
probate division and not in this court.” (Doc. 29-33 at 16.)

App. 30
SO ORDERED.
Dated at Burlington, in the District of Vermont,
this 28th day of August, 2019.
/s/ [Illegible]
Christina Reiss, District Judge
United States District Court

